                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      The Inspector General
                                                      Washington. D.C. 20230



June 15,2010

The Honorable Charles E. Grassley
Ranking Member
Committee on Finance
United States Senate
219 Dirksen Senate Office Building
Washington, D.C. 20510

The Honorable Tom Coburn
Ranking Member
Committee on Homeland Security and Governmental Affairs,
Permanent Subcommittee on Investigations
United States Senate
340 Dirksen Senate Office Building
Washington, D.C. 20510

Via Electronic Transmission

Dear Senators Grassley and Coburn:

This letter is in response to your April 8, 2010, request for information. The OIG has not
experienced situations since October 1, 2008, where the Department or an operating unit resisted
or objected to OIG oversight in a significant manner. Offices of Inspectors General operate in
environments where a certain tension inherently exists between them and the agencies they
oversee. The Department of Commerce Office ofInspector General (OIG) is not immune to this
tension. From time to time, agency operating units may "filter" OIG access to information such
as when an agency liaison becomes involved to a point where communications do not flow freely
between OIG staff and individual agency staff. Also, an agency may delay providing access to
OIG staff until after meeting with the Inspector General or other OIG principal. The OIG
recognizes these potential obstacles and addresses them appropriately as they arise.

Although the OIG has not experienced significant resistance or objection to its oversight
recently, in late 2008 the OIG was continuing to experience certain information access issues
involving the Census Bureau. The OIG and Census resolved these issues by December 2008.
We alerted the Committee on Homeland Security and Governmental Affairs to these issues.
Chairman Lieberman, Ranking Member Collins, Senator Carper, and Senator Coburn sent a
letter to the Census Director on September 16, 2008, which was helpful in resolving the issues.
Enclosed please find a copy of the Committee's letter (see enclosure 1).
For some time prior to December 2008, Census prohibited oro staff from removing Title 13
infonnation from Census facilities or otherwise accessing that infonnation outside of Census
facilities. Census cited its guidelines and policy concerning safeguarding of Title 13 infonnation
as the reason it restricted the oro to on-site only access. The oro was also experiencing delays
in Census's response to oro requests for meetings and infonnation. Although Census's
restrictions did not pose significant, immediate problems, we anticipated that the restrictions
would become particularly problematic given our oversight responsibilities for the upcoming
2010 Decennial Census. Census has since amended its guidelines and policies to provide oro
staff greater access and has also made efforts to better manage oro requests and improve its
responsiveness. This included providing the 010 a stand-alone data access tenninal in oro
offices in the main Commerce Building. I also note that, at the initiation of Census Director
Oroves, conference calls among the 010, OAO, Census Director and Deputy Census Director
are being held twice weekly to discuss ongoing operations and issues identified by our oversight
of the decennial. These calls provide unprecedented access to the Census Director, enabling the
parties to address-in real time-problems the oro and OAO are finding.

Per your request, enclosed are summaries of all 010 investigations, evaluations, and audits that
have not been previously publicly disclosed (see enclosure 2). This infonnation is being
provided for matters that were closed from January 1,2009, through April 30, 2010.

In your letter, you also request a courtesy copy of the OIO's reply to the Ranking Member of the
House Committee on Oversight and Oovernment Refonn regarding outstanding oro
recommendations that have not been fully implemented. Enclosed please find a copy of our
response (see enclosure 3).

rf you have any questions or require additional infonnation, please do not hesitate to contact me
at (202) 482-4661.


~IY,             /          _


l~')~
Enclosures (3)

cc:    The Honorable Oary Locke, Secretary of Commerce
Enclosure 1 

            JOSEPH I. LIEBERMAN, CONNECTICUT, CHAIRMAN

CARL LEVIN, MICHIGAN                SUSAN M. COLLINS, MAINE
DANIEL K. AKAKA, HAWAII             TED STEVENS, ALASKA
THOMAS R. CARPER, DELAWARE          GEORGE V. VDINOVICH, OHIO
MARK L. PRYOR, ARKANSAS             NORM COLEMAN, MINNESOTA
MARY L. LANDRIEU, LOUISIANA

                                                                        tinitrd ~tatrs          ~rnatr
                                    TOM COBURN, OKLAHOMA
BARACK DBAMA, ILLINOIS              PETE V. DOMENICI, NEW MEXICO
CLAIRE McCASKILL, MISSOURI          JOHN WARNER, VIRGINIA
JON TESTER, MONTANA                 JOHN E. SUNUNU, NEW HAMPSHIRE

               MICHAEL L. ALEXANDER, STAFF DIRECTOR                               COMMITIEE ON
            BRANDON L. MILHORN, MINORITY STAFF DIRECTOR
                                                                    HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                                                                             WASHINGTON, DC 20510-6250


                                                                       September 16, 2008

              The Honorable Steven Murdock
              Director
              U.S. Department of Commerce
              Bureau of the Census
              Washington, DC 20233

              Director Murdock:

                     In view of well-known information technology contracting issues and other challenges
              confronting the 2010 Census, we are troubled to learn that there are ongoing concerns about the
              working relationship between the Census Bureau and the Department of Commerce Inspector
              General (IG) and the Government Accountability Office (GAO).

                       In particular, we understand that in June 2006, the Census Bureau circulated a
              memorandum to both the Commerce IG and the GAO regarding certain statutory protections
              governing sensitive census data. Although the Census Bureau indicated that this memorandum
              was simply a reminder of existing policy, both the IG and the GAO view the memorandum as a
              departure from established practice. The IG and the GAO have also indicated that the
              restrictions on data access outlined in the memorandum could impede their ability to conduct
              important oversight.

                     We understand that the Bureau is properly concerned about protecting sensitive data
             provided as part of the census process, but are disappointed to learn of restrictions placed on the
             IG's and the GAO's efforts to provide thorough oversight of the Bureau's activities. Our
             concerns are heightened by the serious problems the Bureau has been facing in its preparations
             for the 2010 Census, most notably the concerns with the Field Data Collection Automation
             program. Such problems increase the need for effective oversight by both the IG and the GAO
             to ensure the quality of the census data. Other agencies that deal with sensitive data have
             resolved similar disputes. For example, the Internal Revenue Service (IRS) has entrusted
             confidential taxpayer information to the Treasury Inspector General for Tax Administration
             (TIGTA) and the GAO for limited and temporary use off IRS grounds. We expect the Census
             Bureau can reach similar satisfactory agreements with the Commerce IG and the GAO.

                     Accordingly, we urge the Bureau to do all it can to facilitate the work of the IG and the
             GAO and to quickly complete any reviews of applicable law necessary to expeditiously resolve
             this matter. This review should help establish reasonable safeguards to ensure that the
             Commerce IG and the GAO can effectively perform their vital duties while also protecting
             sensitive data from improper disclosure.
        We would appreciate your prompt response to these concerns. If you have any questions
regarding this matter, please have your staff contact Kristine Lam or Lisa Nieman, staff members
of the Committee on Homeland Security and Government Affairs, at (202) 224-8539 or (202)
224-9296, respectively.

                                           Sincerely,




                                                               Susan M. Collins
                                                               Ranking Member




d~:;!S-arp~
       Chairman                                                 Ranking Member
       Subcommittee on                                          Subcommittee on
       Federal Financial Management                             Federal Financial Management
Enclosure 2 

U.S. Department of Commerce                                                           Enclosure 2
Office of Inspector General


      Summaries of Closed, Non-public Matters of the Office of Audit and Evaluation 

            (Matters Closed from January 1, 2009 through April 30, 2010)


    •	 The OIG completed audits of several Manufacturing Extension Partnerships (MEP)
       during the applicable period. Some of the MEP reports were not publicly released, but
       were released in “abstract” only. The four MEP reports released in abstract are: Florida
       Manufacturing Extension Partnership Award No. 70NANB3H2002 (ATL-18568);
       Massachusetts Manufacturing Extension Partnership Award No. 70NANB5H1144 (DEN-
       18135); The University of Texas at Arlington Manufacturing Extension Partnership
       Award No. 70NANB5H1005 (DEN-18573); and State of Ohio Department of
       Development MEP Award No. 70NANB5H1188 (DEN-18604). These abstracts are
       attached hereto for reference.

    •	 The OIG engaged KPMG to conduct financial statement audits of the Department of
       Commerce and two of its bureaus during the applicable period. These audit reports were
       not publicly released, but were released in “abstract” only. The three reports released in
       abstract are: FY 2009 Financial Statement Audit, U.S. Patent and Trademark Office
       (FSD-19650); FY 2009 Financial Statement Audit, U.S. Census Bureau (FSD-19651);
       and FY 2009 Financial Statement Audit, Department of Commerce (FSD-19652). These
       abstracts are attached hereto for reference.

    •	 The OIG completed a review of the National Oceanic and Atmospheric Administration’s
       Environmental Satellite Processing Center pursuant to the Federal Information Security
       Management Act of 2002 (FISMA). This report (OAE-19730) was not publicly released,
       but was released in “abstract” only. This abstract is attached hereto for reference.




 
U.S. Department of Commerce                                                           Enclosure 2
Office of Inspector General


            Summaries of Closed, Non-public Matters of the Office of Investigations
               (Matters Closed from January 1, 2009 through April 30, 2010)

Below is a list of unreported investigative cases closed during the period from January 1, 2009
through April 30, 2010. The OIG identified thirty-four (34) responsive cases. The OIG
identified twelve (12) additional cases closed during that period that had been reported in the
OIG’s semiannual reports to Congress. The cases summarized below are indexed by case
number. The OIG can provide further information about specific cases if referenced by the case
number.

    1)	 18638: A National Oceanic and Atmospheric Administration (NOAA) contractor was
        alleged to have engaged in possible contract fraud. Case was closed without actionable
        findings.
    2)	 19462: An allegation that the National Telecommunications and Information
        Administration (NTIA) mishandled consumer data. Case was closed without actionable
        findings.
    3) 19307: A NOAA contractor was alleged to have engaged in possible contract fraud. Case
        was closed without actionable findings.
    4) 19054: A National Institute of Standards and Technology (NIST) grantee was alleged to
        have misused grant funds. Case was closed without actionable findings.
    5) 19020: An International Trade Administration (ITA) employee was alleged to have forged
        a supervisor’s signature. Result was an administrative reprimand in April 2009.
    6)	 19007: NTIA grantees reported being contacted by an unknown person or entity soliciting
        proprietary information and falsely claiming a contractual affiliation with NTIA. Subject
        was never identified. Case was closed without actionable findings.
    7)	 18999: An Office of the Secretary (OS) employee was alleged to have altered a leave and
        earnings statement on behalf of another employee to facilitate a credit report. Case was
        closed without actionable findings.
    8)	 18949: A NOAA employee was alleged to have exceeded his official authority. Case was
        closed without actionable findings.
    9)	 18931: A NOAA employee was alleged to have used his work computer to access child
        pornography. Child pornography was not found. Case was closed without actionable
        findings.
    10) 19749: A NOAA grantee was alleged to have misused grant funds. Case was closed 

        without actionable findings. 

    11) 18718: An OIG employee was alleged to have received transit subsidies while also
        receiving a Department of Commerce-paid parking space. Employee resigned while under
        investigation.
    12) 18411: A Census Bureau employee was alleged to have misreported time and attendance.
        Case was closed without actionable findings.



 
U.S. Department of Commerce                                                          Enclosure 2
Office of Inspector General
    13) 18538: GAO reported various Department of Commerce employees had been identified as
        possibly having abused transit subsidies. Closed without actionable findings. Note: if an
        individual allegation was identified as having merit it was opened as a separate case and
        would have been reported as such.
    14) 18603: Patent and Trademark Office (PTO) budget officials were alleged to have violated
        the Antideficiency Act in handling a transition between fiscal years. Case was closed
        without actionable findings.
    15) 18403: A PTO employee was alleged to have engaged in improper hiring and contracting
        practices. The employee resigned while under investigation in June 2008.
    16) 18314: A NOAA employee was alleged to have engaged in a conflict of interest with
        regard to a training contract. The employee resigned while under investigation in June
        2007.
    17) 18305: An allegation was received that various NOAA and Economic Development
        Administration (EDA) grants may have been within the scope of a broader array of
        improper earmarks allegedly made by a member of Congress and being investigated by the
        FBI. Case was closed without actionable findings.
    18) 18162: A NOAA employee was alleged to have improperly disposed of surplus property.
        Case was closed without actionable findings.
    19) 18392: An ITA Foreign Service National (FSN) employee in Iraq was alleged to have
        engaged in corrupt business practices. Case was closed without actionable findings.
    20) 19755: A NOAA employee was alleged to have misused various government computers,
        databases and records. Case was closed without actionable findings.
    21) 19508: A NOAA employee was alleged to have stolen a piece of shipboard equipment.
        Case was closed without actionable findings.
    22) 17526: A seafood company was alleged to have conspired to control the purchase price of
        a shipment of fish seized for regulatory reasons by NOAA. Case was closed without
        actionable findings.
    23) 19545: A Minority Business Development Agency (MBDA) employee was alleged to
        have engaged in a conflict of interest. Case was closed without actionable findings.
    24) 19539: A NOAA grantee was alleged to have misused grant funds. Case was closed
        without actionable findings.
    25) 18092: A Census Bureau employee was alleged to have fraudulently used a non-
        government credit card to pay for local parking tickets in Washington, DC. Result was an
        administrative termination for unacceptable conduct in March 2007.
    26) 15728: A NIST grant was alleged to have involved a conflict of interest. Case was closed
        without actionable findings.
    27) 17836: A Census Bureau employee was alleged to have engaged in workers compensation
        fraud. Case was closed without actionable findings.




 
U.S. Department of Commerce                                                              Enclosure 2
Office of Inspector General
    28) 10-0005*: A NOAA employee was alleged to have made threatening remarks about 

        fishing industry entities that cooperated with the OIG during a review of NOAA 

        enforcement practices. Case was closed without actionable findings. 

    29) 10-0003: A NOAA employee was alleged to have engaged in a conflict of interest. Result
        was that NOAA and the Office of General Counsel made a restatement of policy regarding
        appropriate recusals in February 2010.
    30) 10-0091: A Census Bureau employee was alleged to have engaged in workers
        compensation fraud. Result was an administrative bill of collection, issued for $1564 in
        January 2010.
    31) 10-0166: A NOAA employee was alleged to have engaged in fraud regarding HUD 

        housing benefits for their residence. Case was closed without actionable findings. 

    32) 10-0173: A computerized Department contracting database was alleged to have 

        deficiencies in security certifications. Case was closed without actionable findings. 

    33) 10-0165: An EDA grantee was alleged to have misused grant funds. Case was closed 

        without actionable findings. 

    34) 10-0007: An NTIA American Recovery and Reinvestment Act broadband grant applicant
        was alleged to have been solicited for a bribe by an individual purporting to be an insider to
        the award process. This individual was never identified. Case was closed without
        actionable findings.

*In October 2009, the OIG Office of Investigations changed its case numbering convention, so
all cases closed between October 2009 and April 2010 have case number formats that differ from
older cases.

The following are cases closed during the applicable period that were previously reported in a
Semiannual Report to Congress:
   1) 18106: NOAA – employee purchase credit card misuse; March 2007 Semiannual, p.63
   2) 18207: NOAA – theft by a contractor; March 2007 Semiannual, p.62
   3) 16910: NIST – theft by an employee; March 2009 Semiannual, p.50
   4) 16590: NIST – misuse of computers/pornography; March 2004 Semiannual, p.44
   5) 17975: NOAA – fleet card and vehicle misuse by employee; September 2006
       Semiannual, p.49
   6) 16011: NOAA – misuse of computers/child pornography; March 2006 Semiannual, p.51
   7) 17466: NOAA – permanent change of duty station reimbursement fraud by employee;
       March 2006 Semiannual, p.50
   8) 18443: NOAA – employee purchase credit card misuse; March 2008 Semiannual, p.26
   9) 18607: OS – employee transit benefits misuse; March 2009 Semiannual, p.49
   10) 18754: NOAA – purchase credit card fraud; September 2008 Semiannual, p.42
   11) 18836: NOAA – grant fraud; March 2009 Semiannual, p.50




 
U.S. Department of Commerce                                                         Enclosure 2
Office of Inspector General
    12) 19291: 	ITA – violation of security regulations by employee; September 2009 

        Semiannual, p.37 





 
Why We Did this Review National Institute of Standards and Technolo9Jl
The Florida Manufactur-
ing Extension Partnership
                                  Florida Manufacturing Extension Partnership
(l\iIEP) received a NIST
cooperative agreement in          Award No. 70NANB3H2002 (ATL-18568)
2003 that, as amended,
funded the operations of
its MEP center for ap-
proximately 1 years (August       The Florida Manufacturing Extension Partnership claimed costs total-
2003-~June 2007). Total           ing $19.1 million for the period ,July 2005 through March 2007, and
budgeted costs for the projec t   received federal reimbursements of $5 million. We questioned
were $17.1 minion. The            $12.6 minion of the claimed costs. The bulk ofthis amount-$l1A mil-
federal share was capped at       lion-represents costs submitted by eight subrecipients ,vithout docu-
85.8 million.                     mentation to show that the expenditures were directly incurred as part
We andited the MEP to dec         of their MEP-funded work.
termine whether its claimed
costs were allowable under        We questioned an additional $742,782 for, among other things, unsub-
the terms of the agreement        stantiated consultant fees, duplicative services. unallowable lobbying
and whether the recipient         activities, unreasonable travel expenses, and unreasonable rent and
had complied with all other       supply costs, as well as $:386,1:33 in indirect costs related to these ex-
MEP operating guidelines,         penditures.
award tenus, and condi-
t.ions. We also examined the      We also questioned $99,7:38 in improperly valued and inadequately
costs submitted by eight          documented donated services and personnel time. The bulk of this
entities ("subrecipients")        amount-$85,738-represented expenses incurred by two third-party
that received cooperative         contributors for their own day-to-day business operations rather than
ag-reement fi.mding from          in services directly supporting the MEP.
the Flol'idaTvrEP to provide
related services and two          Finally, we f()Und that the financial stah.ls reports the MEP filed dur-
third patties that made           ing the period of our audit were erroneous: the MEP reported having
in-kind contributions to the      excess program income, which "vas not the case, and incorrectly char-
program.                          acterized these funds as "unrestricted net assets." meaning they could
Background
                                  be used without federall'estrictions or oversight.

Congress established the
Manufacturing Extension
ProgTam in 1988 to provide
manufactm'ers with teclmi-
cal and business manage-          \Ve recommended that NIST take the f()llowing actions:
ment assistance aimed at
                                         1.    Disallow $12,62;3,477 in questioned costs.
improving their profitability,
productivity, and global                 2.    Recover $2,868,:39;3 of excess federal funds.
competitiveness,
Today there is at least one
                                         3.    Require the Florida MEP to COl'l'ect and refile financial
center in every state and
                                               status reports to show that all earned program income was
a total of 59 MEP centers
                                               used to meet the MEP's cost-share requirement.
located across the country.
Why We Did this Review National Institute of Standards and Technology
The lVlassachusetts JVlanu-
factm:ing Extension Partner-
                                  Massachusetts Manufacturing Extension Partnership
ship (!\iIEP) received a l\'1ST
cooperative agreement in          Award No. 70NANB5H1144 (DEN-18135)
September 2005 to continue
operating an MEP center
it had established in 1998
with 1\18'1' funding. The
September 2005 award, as
amended, provided funding         The Massachusetts Manufacturing Extension Partnership claimed
for 1 year (July 2005-,June       costs totaling $9A million for the period July 2005 through June 2006,
2006). Total estimated costs      and received federal reimbursements of $2.4 million. We questioned
of the project were $7.1 mil-     $5.1 million of its claimed costs, as follows:
lion. The federal share was
capped at $2.4 million (33              $4,167,430 claimed by two subrecipients \vho could not
percent) of allowable costs.            document that their costs were incuned as part of their IVIEP-
                                        funded work.
We a udited the TvIEP to de-
tennine whether its claimed             $908,823 for contract services that did not accomplish NIST
cost~" v..ere allowable under           cooperative agreement objectives.
the terms of the agreement
and whether the recipient               $10,745 in consultant fees and associated costs f(n' services pro-
had complied with all other             vided prior to the award's start date.
l\JEP operati.ng guidelines.
award terms, and conditions.      In addition, we found that the MEP's reported earned program income
\Ve also examined the costs       for the year ended June 80, 2006, exceeded its nonfederal matching
submitted by entities ("'sub-     share expenditures by $1.1 million. But the IVLEP did not seek required
recipi.ents'") that received      NIST approval to apply the additional income to nonfederal expendi-
cooperative agreement fund-       ture:s incurred in subsequent award periods and should theref()re have
ing from the MEP to provide       used this amount to reduce the federal share of the l\lEP's expendi-
re1a ted services.                tures, in accordance with cooperative agreement terms and conditions
                                  and federal regulations.
Background
Congress established the          Because of the questioned costs and excess program income, Massachu-
'Manuf~lcturingExtension          setts MEP ultimately received $1.:3 million in excess federal funding.
Program in 1988 to provide
manufacl,un~rs wit.h leelmi-
                                   -f    "       --   ~       ¥::             -.'           \","   <:::~;>« ",,~~?,t·=~. --z,J~)   "~~~~-       ;


cal and business manage-          What We Recommended                                     ..         :                  ."            ,.    .
                                           ~ " k          T    A   '>:   ,;     ~   it<'~ ':':       ~         :.   ~   ->-   _    N,.
ment assistance aimed at.
improving their profitability,    We recommended that NIST disallow $5.1 million in questioned costs,
productivi.ty, and global         and recover $1.:3 million in excess federal funds.
competitiveness.
Today i.here is at least one
center in every state and
a total of59l\:fEP cent.ers
located across the countr:v.
Why We Did this Review National Institute of Standards and Technology
The University ofTexas at
Arlington (UTA) received a
                                   The University of Texas at Arlington
~'IST cooperative agreement
in 1\1arch 200:'5 to continue      Manufacturing Extension Partnership (MEP) Award No.
operating the Texas l\1anufac-     70NANB5H1005 (DEN-18573)
turing Assistance Center-a
network of seven centers op-
el'ating throughout the state.
The a\vard, as amended, pro-
                                   What We Found
vided funding for 33 months
(December 2004-August
2007). Total estimated costs of    The University of Texas at Arlington claimed costs totaling $21 mil-
the project were $42 million.      lion for the period September 2005 through March 2007, and received
The federal share was capped       federal reimbursements of $6.6 million. We questioned $1,619,280 of
at $14 million (33 percent) of     these costs, as follows:
allowable costs.
                                         $1,533,055 in costs submitted to UTA by subrecipient Texas
We audited the ]VlEP to de-
                                         Engineering Extension Service (TEEX) for, among other things,
termine whether its claimed
                                         services from contractors that the contracting firms provided
costs were allowable under
                                         as part oftheir normal course of business, not as a result of their
the terms of the agreement
                                         J\:1EP association: activities the extension service could not docu-
and whether the recipient had
                                         ment as having been incurred as part ofMEP-funded work; and
complied vvith all other MEP
                                         indirect costs that exceeded the approved budget.
operating guidelines, award
temls, and conditions. We also           $86,225 in direct and indirect costs UTA. incurred for unallowable
examined costs submitted to              lobbying and related hotel expenses.
UTA by two "subrecipients"-
Texas Engineering Exten-           We also found that TEEX used $2:38,338 budgeted for indirect costs to
sion Service and Southwest         cover direct costs claimed from September 1, 2005, through August 81,
ReseHrch Institute-that            2006, without prior approval fi'om NIST or UTA, and reported incorrect
received cooperative agree-        program income for its subrecipients.
ment funding from the MEP
to operate centers.                Finally, we found that subrecipient Southwest Research Institute er-
                                   roneously claimed certain indirect costs, totaling $()3,412, as in-kind
Background                         contributions.
Congress established the
l\lanufacturing Extension
Program in 1988 to provide
manufacturers ·with technical
and business management
assistance aimed at improving      What We Recommended
their profitability, productivi-
ty, and global competitiveness.
Today there is at least one        We recommended that NIST disallow $1,619,280 in questioned costs
center in every state and a to-    and recover $94,120 in excess federal funds.
tal of 591'lEP centers located
across the country.
Why We Did this Review                National Institute of Standards and Technology
The objective of our audit was
to determine whether the State        State of Ohio Department of Development
of Ohio Depaltment of Develop-
ment (ODOD) repOlted Mqnu-
                                      MEP Award 70NANB5H1188 (DEN-18604)
facturing Extension Partnership
(MEP) costs to the National
                                      What We Found
Institute of Standards and Tech-
nology (NIST), including costs
inculTed by subrecipients, that
                                      Our audit questioned $6,781,041 in costs claimed by ODOD and its subrecipi-
were reasonable, allocable, and
allowable in accordance with          ents, Manufacturing Advocacy and Growth Network (MAGNET) and Tech-
applicable federal cost principles,   solve, Inc. The costs in question pertained to contractual claims, salaries and
cooperative agreement tenl1s          other personnel costs, invalid travel-related claims, and various indirect costs.
and conditions, and NIST policy,
including ME? Operaiing Plan      We found that the subrecipients did not repOlt program income generated under
Guidelines.                       their subawards to ODOD; consequently, ODOD did not repOlt this infonna-
                                  tion to NIST. The two subrecipients also generated program income in excess
Background                        of what was permissible under the cooperative agreement. We analyzed MAG-
                                  NET's and TechSolve's accounting records for the period July 1,2005, through
Tn September 2005, NTST
awarded an MEP cooperative        June 30, 2006, and found the two subrecipients had generated a combined pro-
agreement to ODOD to continue gram income of $1 ,424,266 in excess of what was required to pay the nonfed-
operating an existing MEP center. eral share of project costs.
The award fimded the period July
1,2005. through June 30, 2006,        As a result of the questioned costs and excess program income, ODOD received
and was later extended through        $2,057,121 more than it should have in federal funds.
Jtine 30, 2007. Total estimated
project costs for the 24-month                        ,                       '

award period were $27272,502.
                                      What We Recommended
                                                    «,
In May 2007, we initiated an au-
dit of the agreement to detell1line
whether the recipient complied        We recommended the chief ofNIST's Grants and Agreement Management
with award terms and conditions       Division
and NIST operating guidelines
for MEP centers. Thc audit               disallow $6,781,041 in questioned costs;
covered the period July 1,2005,
                                         deduct $1,424,266 in excess program income from total accepted project
through March 31, 2007, during
which time the recipient claimed         costs from ODOD's subrecipients; and
project costs of $20,269,989 and         recover $2.057,121 of excess federal funds from ODOD.
received federal reimbursements
totaling $6,517,538.

We examined the costs the recipi-
ent claimed to havc incUiTed as
well as the cost claims of two
grant subrccipients, MAGNET
and TechSolve, Inc.
Why We Did This Review U.S. Patent and Trademark Office (USPTO)
USPTO'sfinancial
statements are audited in        FY 2009 Financial Statement Audits                     (FSD-19650)
conjunction with the annual
audit of the Department of
Commerce's consolidated         What We Found
financial statements, which
is required by la\v.
                                KPMG's audit found that USPTO's financial statements were fairly presented in all
                                material respects and in confOimity with U.S. generally accepted accounting principles.
                                KPMG found no instances of material noncompliance with laws, regulations, or
                                contracts. The audit results indicate that USPTO's intemal control structure facilitates
                                the preparation of reliable financial and perfollnance infOimation.
Background                      The IT review found that while USPTO has taken positive steps to COlTect previous
The Office of Inspector         findings, there are still several weaknesses in its IT environment. These weaknesses
General engaged KPMG, an        combine to 101m a significant deficiency in USPTO's IT controls.
independent public
accounting finn, to audit
USPTO's FY 2009 financial
statements. The audit
included an assessment of
USPTO's IT controls
supporting its financial
management systems.

KPMG conducted the
financial statement audit in
accordance with U.S. gener-               ~~   ~4~1                ~f~~
                                                                                                               V

                                                                                                           V




ally accepted govemment         What We Recommend                    't·
auditing standards and Office                                         //%   '
of Management and Budget
Bulletin 07-04, Audit
                                The results ofKPMG's IT audit have been summarized in a limited distribution
Requirements for
Federal Financial Statements,   report. We requested that USPTO provide us an audit action plan by January 9, 2010, to
as amended, and measured        address the repol1's findings and delineate the actions it plans to take to fix its IT
USPTO's IT controls against     vulnerabilities. We also asked that USPTO provide its rationale or the legal basis behind
the five criteria in GAO's      its decision should it choose not to implement KPMG's recommendations.
Federal Infonnation System
Controls Audit Manual.

We defined the scope of work
for the audits, oversaw their
perfonnance and delivery,
and reviewed the final
reports.
Why We Did This Review U.S. Census Bureau
The U.S. Census Bureau's
financial statements 'were       FY 2009 Financial Statement Audits                       (FSD-19651)
audited in conjunction
with the annual audit of the
Department of Commerce's        What We Found
consolidated financial
statements, which is
required by law.                KPMG's audits found that Census's balance sheet was fairly presented in all material
                                respects and in confOlmity with U.S. generally accepted accounting principles. KPMG
                                found no instances of material noncompliance with laws, regulations, or contracts. The
                                audit results indicate that Census's internal control stlUcture facilitates the preparation of
                                reliable financial and perforn1ance inforn1ation.
Background                      The IT review found that while Census has taken positive steps to con-ect previous IT
The Office of Inspector         findings, there are still weaknesses related to IT controls supporting the bureau's
General engaged KPMG, an        financial management systems. These weaknesses are not considered a significant
independent public              deficiency in Census's IT controls.
accounting firm, to audit the
Census's FY 2009 balance
sheet, including an
assessment of the IT
controls supporting its
financial management
systems.

KPMG conducted the audit
in accordance with U.S.
generally accepted                 <           ,             ~?08>         0<;~~
government auditing           What We Recommend '; c···                                      .
standards and Office of      .                                           ,
Managemcnt and Budget
Bulletin 07-04, Audit
                              The results of KPMG's IT audit have been summarized in a limited distribution report.
Requirements for
Federal Financial Statements, We requested that Census provide us an audit action plan by January 9, 20 I0, to address
as amended, and measured      the report's findings and delineate the actions it plans to take to fix the IT vulnerabilities.
Census's IT controls against We also asked that Census provide the rationale or legal basis behind its decision should
the five criteria in GAO's    it choose not to implement KPMG's recommendations.
Federal Infoffilation System
Controls Audit Manual.

We defined the scope of work
for the audits, oversaw their
perfonnance and delivery,
and reviewed the final
reports.
Why We Did This Review Department of Commerce
The Government
Management Refonu Act of         FY 2009 Financial Statement Audits                       (FSD-19652)
1994 amended the
requirements of the Chief                                                                                        ~<'

Financial Officers Act of       What We Found                                                                    ;"
1990 by requiring annual
preparation and auditing
                                KPMG's audit found that the Department's consolidated financial statements were fairly
of the Department of
                                presented in all material respects and in confonnity with U.S. generally accepted
Commerce's financial
                                accounting principles. KPMG found one instance of material noncompliance with laws,
statements.                     regulations, or contracts: the National Oceanic and Atmospheric Administration did not
                                comply with the Anti-Deficiency Act. Another concern related to Anti-Deficiency Act
                                compliance at the National Telecommunications and Infonnation Administration will be
Background                      refeITed to the Department's Office of General Counsel.
The Office of Inspector
General engaged KPMG, an        KPMG found that while the Department has taken positive steps to COITect previous
independent public              findings, there are still vulnerabilities related to various controls over the Department's
accounting finn, to audit the   financial management systems. These weaknesses combine to form a significant
Department of Commerce's        deficiency in Commerce's IT controls.
FY 2009 consolidated and
special-purpose financial       KPMG also audited the Department's special-purpose financial statements and deter-
statements, including an        mined its compliance with the financial reporting requirements in the Treasury Financial
assessment of the IT            Manual. The Treasury Department uses the audited statements to prepare its Financial
controls supporting its         Report of the U.S. Govcmment. In its unqualified opinion on the special-purpose
financial management            statements, KPMG reported no material weaknesses in intemal controls and no
systems.                        instances of noncompliance.

KPMG conducted the
financial statement audit in
accordance with U.S. gener-
ally accepted government
auditing standards and Otfice
                                KPMG's audit has been summarized in a limited distribution report. We requested
of Management and Budget
Bulletin 07-04, Audit           that the Department provide us an audit action plan by January 9, 2010, to address the
Requirements for                report's findings and delineate the actions the Department plans to take to fix the IT
Federal Financial Statements,   deficiency. We also asked that the Department provide the rationale or legal basis behind
as amended, and measured        its decision should it choose not to implement KPMG's recommendations.
the Department's IT controls
against the five criteria in
GAO's Federal Infol1na-
tion System Controls Audit
Manual.

We defined the scope of work
for the audits, oversaw their
perforn1ance and delivery,
and reviewed the final
reports.
Why We Did This Review               National Oceanic and Atmospheric Administration (NOAA)
The Federal Information
Security Management Act of
2002 (FISMA) requires federal        FY 2009 FISMA Assessment of the Environmental
agencies to identify and provide     Satellite Processing Center (ESPC) (OAE-19730)
security protection of                                                                    ,
                                                                                                    .                 ~

                                                                                                                      '~y;   ,
information collected or             What We Found                                                                      /
maintained by them or on their                                                    ~                                    0
behalf. Inspectors general are
required to annually evaluate        Our objectives for this review were to determine whether (1) implemented
agencies' information security       controls adequately protected the system and its information, (2) continuous
programs and practices. Such         monitoring is keeping the authorizing official sufficiently infonned about the
evaluations must include testing     operational status and effectiveness of security controls, and (3) the certification
of a representative subset of        and accreditation (C&A) process produced sufficient information about remain-
systems and an assessment,           ing system vulnerabilities to enable the authorizing official to make a credible,
based on that testing, of the        risk-based accreditation decision.
entity's compliance with
FISMA and applicable require-    We found that the National Environmental Satellite, Data, and Information
ments.                           Service has not followed the required process for C&A of ESPC. The lack of
                                 proper security planning undem1ined the effectiveness of the system's security
This review covers our           certification, hindering the authorizing official in making a credible risk-based
evaluation of NOAA's ESPC,       accreditation decision. The system's plan of action and milestones for remediat-
which is one of a sample of sys- ing vulnerabilities is ineffective.
tems v"e assessed in FY 2009.

Background
ESPC is NOAA's primary pro-
cessing system for the nation's
environmental satellite data.
ESPC ingests, processes, distrib-
utes, and archives data from two
environmental and meteorologi-
                                  We recommend that NOAA complete security planning activities, conduct
cal satellite systems.
                                     appropriate security control assessments, and address system deficiencies.
                                     Until these activities have been completed, NOAA should revise the system's
C&A is a process by which
                                     accreditation status to an interim authorization to operate.
security controls for IT sys-
tems are assessed to determine
                                     In its response to our draft report, NOAA disputed our findings and conculTed
their overall effectiveness.
                                     with only two of our recommendations. NOAA does agree that ESPC's
Understanding the remaining
                                     security posture must improve. We have asked NOAA to reconsider its
vulnerabilities identified during
                                     response based on our comments in this repoli and craft its action plan, due in
the assessment is essential in
                                     60 days, accordingly.
determining the risk resulting
from the use of the system to the
organizations's operations and
assets, to individuals, to other
organizations, and to the nation.
Continuous monitoring is a
critical post-accreditation aspect
of this process.
Enclosure 3 

                                              UNITED STATES DEPARTMENT OF COMMERCE
                                              The Inspector General
                                              Washington, D.C. 20230




April 14,2010

The Honorable Darrell Issa
Ranking Member
Committee on Oversight and Govenunent Reform
House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515-6143

Dear Mr. Issa:

In response to your request of March 24, 2010, we are providing current information on
our office's open and unimplemented recommendations (see enclosure 1). We have no
open or unimplemented recommendations with potential monetary benefits. As
requested, we also identify what our office considers to be the three most important
unimplemented recommendations (see enclosure 2).

In your letter you also solicited our opinion about improving the Inspector General Act of
1978. We are providing our response under separate cover.

If you have any questions or require additional information, you or your staff may contact
me at (202) 482-4661 or Judith J. Gordon, Associate Deputy Inspector General, at (202)
482-2754.

Sincerely,


~~'5~
Todd J. Zinser

Enclosures (2)

cc: The Honorable Edolphus Towns, Chairman
u.s. Department of Commerce                                                        Enclosure 1
Office of Inspector General




             Open and Unimplemented Recommendations Since 2007*
                           (As of March 31, 2010)
                                                   Recommendations    Recommendations
Calendar    Recommendations    Recommendations
                                                        Still         Implemented since
 Year            Made             Still Open
                                                    Unimolemented        Jan 5,2009
  2007                  187                   0                  49                 17
  2008                  143                   0                   8                107
  2009                  100                   0                  68                 32
2010 (as
of 3/31)                 20                   0                  16                  4
  Total                 450                   0                141                 160


*The chart was compiled by reviewing all performance audit, evaluation, and inspection
reports issued by Commerce DIG during the period of January 1,2007, through March
31,2010. We consider an "open" recommendation to be an OIG recommendation that a
bureau has not accepted, and an "unimplemented" recommendation to be a
recommendation that a bureau has accepted but has not yet implemented. We have not
reported on classified or sensitive non-public recommendations, recommendations in
financial statement audits, or those addressed to specific non-federal entities in
connection with audits of financial assistance awards.
U.S. Department of Commerce                                                             Enclosure 2
Office of Inspector General




                    Top Three Unimplemented Recommendations

1.2010 Census: Quarterly Report to Congress (010-19791-1), August 2009

Our review found" serious limitations to effective management and oversight of the 2010
Census including lack of integration of schedule activities and budget plan/expenditures,
an unreliable cost estimate for the decennial census, delayed risk management activities,
and lack of transparency in monthly status reports. We made the following set of
recommendations for improving 2020 Census planning and oversight:

   •   Complete the schedule development process earlier in the 2020 decennial life-cycle.
       Utilize the bureau's project management software to integrate cost and schedule
       activities of bureau and contractor operations to allow Census managers to better
       track the status of available funds, forecast impending underruns and overruns so that
       funds can be reallocated promptly, and improve the transparency of decennial
       decisions to Census stakeholders.

   •    Develop a transparent decision documentation strategy to account for 2020 Census
       program and spending decisions.

   •   Strengthen and implement a risk management strategy and relevant contingency plans
       prior to the start of 2020 decennial census operations.

a) Status of Recommendation: Census has agreed with our recommendations. Planning for
the 2020 Census is under way.

b) Estimated Cost Savings: The cost savings cannot be projected. However, the total
cost of the 2010 Census is projected to be $14.7 billion, which includes cost growth
estimated to exceed $3 billion. Improved planning, management, oversight, and
transparency are critical to containing cost and avoiding similar overruns in the 2020
Census.

c) Whether agency plans to implement the recommendation in the near future:
According to the bureau, a small core team at Census has begun early planning and is
focused on establishing planning and program management processes to ensure a
foundation for designing the 2020 Census.
U.S. Department of Commerce                                                            Enclosure 2
Office of Inspector General


2. Commerce Should Take Steps to Strengthen Its Information Technology Security
Workforce (CAR-19569-1), September 2009

IT security weaknesses have been sufficiently serious that the Secretary of Commerce has
reported this issue as a material weakness in the annual Performance and Accountability
Report since FY 2001, pursuant to the Federal Managers' Financial Integrity Act of 1982.
Based on our reviews, we have attributed the persistence of the material weakness, in
part, to weaknesses in the IT security workforce and have recently completed an audit in
which we found that the Department needs to devote more attention to the professional
development and guidance of the IT security personnel who protect the Department's
sensitive computer systems and information.

We made a number of recommendations for improving the IT security workforce
including to enhance the professional development of personnel with significant IT
security responsibilities. In particular, we noted that the only federal job classification
specifically targeted toward IT security does not require a college degree and
recommended that the Department develop and implement a requirement for professional
certifications for key IT security personnel.

a) Status of Recommendation: The Department agreed with our recommendation and
has developed an implementation plan.

b) Estimated Cost Savings: The cost savings cannot be projected. However,
implementation of the recommendation not just for the Department of Commerce but for
all civilian agencies would substantially improve the capacity of the IT security
workforce and thus the security of sensitive government information and systems.
Recognizing a similar need, the Department of Defense began implementing a
professional certification requirement for its IT security workforce in 2004 with a goal of
full compliance by 2011.

c) Whether agency plans to implement the recommendation in the near future: The
Department is developing a policy that will require noncertified personnel in roles
requiring certification to work with their supervisors to establish a development plan
leading to successful accomplishment of an appropriate certification. Certification will
also be required for new employees in designated roles.
U.S. Department of Commerce                                                             Enclosure 2
Office of Inspector General


3. Successful Oversigltt of GOES-R Requires Adlterence to Accepted Satellite
Acquisition Practices (OSE-18291), November 2007

In 2005, the Department and NOAA assumed oversight and management responsibility
for the entire Geostationary Operational Environmental Satellite (GOES-R) program,
which is now projected to cost $7.7 billion. This represents a $1.5 billion increase from
the original estimate. For the first time, NOAA, rather than NASA, has the lead role in
GOES-R's program management and acquisition, thus giving the Department direct
oversight authority for both the ground and space segments. While this change was
positive overall, these new roles added risk to an already highly complex undertaking.
Our review found that the Department lacked a workable oversight structure not just for
GOES-R but for all major acquisitions. Accordingly, we made the following
recommendation:

   •   Complete and implement the Department's major system acquisition policy. For
       satellite programs, ensure the policy incorporates the key decision points in NPR
       7120. 5D and requires comprehensive independent reviews at all key decision
       points. (NPR 7120.5D is a NASA policy that NOAA has adopted for its satellite
       acquisition activities.)

a) Status of Recommendation: The Department agreed to develop a major systems
acquisition policy by the third quarter of FY 2008 but stated that in creating the policy, a
key decision point structure would be considered, along with other approaches. This
deadline was not met. The current Deputy Secretary has convened a steering conunittee
to develop a Department-wide major investment oversight policy.

b) Estimated Cost Savings: The cost savings cannot be projected. However, with an
estimate of nearly $20 billion to be spent on two critical environmental satellite systems
over their life cycle and $2.6 billion in major IT investments in FY 2010 alone, the
Department must have an effective oversight program in place.

c) Whether agency plans to implement the recommendation in the near future: The
Department has not provided a specific date as to when the. reconunendation will be
implemented. As noted above, it is actively working this issue at the direction of the
Deputy Secretary.
